HHS/OIG, Audit - "Review of Administration for Children and Families Runaway and Homeless Street Outreach Program Administered By Spectrum Youth and Family Services, Inc.,"(A-01-01-02503)
Department
of Health and Human Services
"Review of Administration for Children and Families Runaway and Homeless Street Outreach Program Administered By
Spectrum Youth and Family Services, Inc.," (A-01-01-02503)
November 26, 2001
Complete
Text of Report is available in PDF format (2.40 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our review of the Runaway and Homeless Street Outreach Program administered by Spectrum Youth and Family Services, Inc.
(Spectrum) and funded by the Administration for Children and Families (ACF) disclosed that program goals were generally
being met.  However, not all required Program Progress Reports were submitted by Spectrum.  With regard to the
accounting system and grant management policies, we noted that internal control deficiencies were reported in Spectrum's
annual organizationwide audit performed by its independent Certified Public Accountant (CPA) in each of the three years
ended September 30, 2000.  However, Spectrum has not taken corrective action on all of these deficiencies and, as
a result, they continue to be problem areas that could adversely affect Spectrum's ability to administer federal programs
in accordance with applicable requirements.
In addition to the deficiencies identified by the CPA, we noted that Spectrum (1) included as their nonfederal share
of matching funds costs related to another federal grant award and other costs that are not appropriate for federal matching
purposes; (2) regularly drew down ACF grant funds at the rate of one-twelfth per month rather than drawing funds based
on actual program expenditure requirements; (3) did not file all required Financial Status Reports for the period reviewed;
and (4) maintained a Contingency Account on their accounting books which included small balances.
We recommended that Spectrum take action to correct all deficiencies noted in the CPA audit reports as well as those
additional issues identified during our review.  Spectrum officials concurred with the recommendations and indicated
that policies have been established to correct all deficiencies noted in our audit report.